                                               OFFICE OF INSPECTOR GENERAL
                                                                             MEMORANDUM




 DATE:         May 6, 1999

   TO:         Chairman

 FROM:         Inspector General

SUBJECT:       Report on Audit of the Federal Communications Commission Purchase Card
               Program

Attached please find a copy of the subject audit report. The primary objective was to review the
Commission’s purchase card program. This encompassed reviewing documents, conducting
interviews, and evaluating cardholder and approving official compliance with purchase card
program policies and procedures.

The auditors determined that the Commission developed comprehensive purchase card program
internal control policies and procedures, effectively communicated the program requirements to
all cardholders and approving officials, and made the necessary checklists and supporting
reference materials readily available.

However, this report cites that cardholders and approving officials were not in full compliance
with the purchase card program policies and procedures because they failed to complete the
required Checklist C-1 prior to making purchases. This report contains a recommendation to
address this condition. OIG auditors also identified isolated instances in which program policies
and procedures were also bypassed by cardholders. Management concurred with our
recommendations and will institute review procedures to ensure compliance with the
Commission’s purchase card program policies and procedures.


                                                    H. Walker Feaster III
Attachment
Cc: Chief of Staff
   Managing Director
   Manager, Contracts and Purchasing Center
       FEDERAL COMMUNICATIONS COMMISSION
                OFFICE OF INSPECTOR GENERAL




                 AUDIT REPORT NO. OIG 98-06
              REPORT ON AUDIT OF THE FEDERAL
     COMMUNICATIONS COMMISSION PURCHASE CARD PROGRAM

                          May 6, 1999




_____________________________      _____________________________
  ASSISTANT IG FOR AUDITS                   SENIOR AUDITOR




                    ____________________________
                          INSPECTOR GENERAL
                    REPORT ON AUDIT OF
          THE FEDERAL COMMUNICATIONS COMMISSION
                  PURCHASE CARD PROGRAM


                            Table of Contents


                                                                              Page

EXECUTIVE DIGEST ..........................................…………………………….. 1

AUDIT OBJECTIVE ...........................................……………………………… 1

AUDIT SCOPE ...............................................…………………………………. 1

BACKGROUND ................................................……………………………….. 3

FINDING & RECOMMENDATION ................................……………………… 4

OTHER ISSUES IDENTIFIED ………………………………………………… 5

APPENDIX – Management Response …………………………………………. 8
                                   EXECUTIVE DIGEST

As a result of our audit, we determined that the FCC developed comprehensive policies and
procedures for making purchase card transactions of goods and services up to $25,000 that are in
compliance with the Federal Acquisition Regulations (FAR). However, even though all FCC
cardholders and approving officials were formally trained in their FCC Government Purchase
Card Program responsibilities, OIG auditors found that certain FCC employees are not in full
compliance with those internal control policies and procedures because cardholders failed to
complete and file the required Checklist C-1 (FCC Form A-526) documenting their purchase
card transactions. The Commission’s Checklist C-1 creates a record documenting the card users
compliance with the rules governing each purchase card transaction.

OIG auditors also identified isolated instances in which program policies and procedures were
bypassed as follows:

    •   One cardholder placed a split order to evade the single-order purchase limit.

    •   Two cardholders made information technology component purchases from vendors other
        than those on the approved vendor list.

                                   AUDIT OBJECTIVES

The audit objectives included determining whether (1) FCC card holders and approving officials
purchase goods and services in compliance with prescribed policies and procedures and, (2)
whether the Purchase Card Program controls and infrastructure sufficiently support card holder
and approving official purchase activities1.

                                       AUDIT SCOPE

We conducted our audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether Commission's Purchase Card Program is free of material misstatement. An audit
includes:

    •   obtaining an understanding of the Purchase Card Program system and related internal
        controls;

1
 FCC Directive 1097.1, Use of Federal Government Purchase Card for Small
Purchases, effective August 8, 1997, and User Guide UG-1, FCC Government
Purchase Card Program, February 23, 1998.

                                                1
   •   determining if the internal controls are adequate and in operation;

   •   assessing control risk to use as a basis for planning the nature, timing, extent of testing;

   •   examining, on a test basis, evidence supporting the amounts and disclosures in the data
       and records reviewed; and,

   •   evaluating the overall data and records presentation.

We evaluated approximately 90 percent of the Commission’s January 1998 purchase card
transaction dollar volume by selecting all transactions that were $5000 or more, randomly
selecting transactions from $1,000 to $4,999, and judgmentally selecting transactions under
$1,000. We used the applicable requirements contained in the following as the basis for our
review:

   •   OMD FCC Government Purchase Card Program Policies and Procedures binder;

   •   FCC Directive No. 1097.1, Use of Federal Government Purchase Card for Small
       Purchases;

   •   Federal Acquisition Regulation (FAR) 90-41, Part 8, Required Sources of Supplies and
       Services;

   •   FAR 90-40, Part 13, Simplified Acquisition Procedures; and,

   •   Anti-deficiency Act (31 USC 1341, 1342, and 1512).

Our audit specifically covered the FCC Government Purchase Card Program system's internal
control procedures associated with the following control objectives:

   •   Operational control ensures that card holders and approving officials make and approve
       purchases effectively and efficiently; and,

   •   Compliance control ensures that cardholders and approving officials comply with
       applicable laws and regulations.

We believe that our audit provides a reasonable basis for our opinion.



                                                 2
                                     BACKGROUND

On October 13, 1994, Congress enacted the Federal Acquisition Streamlining Act of 19942
(FASA) in order to streamline the acquisition process and better align Government with
commercial practices and empower contracting officers (CO) with maximum flexibility
wherever possible. FASA also encourages Agencies to use the Government-wide commercial
purchase card and electronic purchasing techniques to the maximum extent practicable3.

In August 1995, OMD issued FCC Directive FCCINST 1097.14, Use of Federal Government
Purchase Cards for Small Purchases, detailing the policies and procedures for FCC use of
Federal government purchase cards. Under this program, select FCC employees outside the
Office of the Managing Director’s (OMD) Contracts and Purchasing Center, were issued VISA
purchase cards to make official purchases of goods and services. OMD provided these
employees with VISA purchase cards to improve efficiency, save time, and eliminate non-value-
added processing and paperwork for making purchases in accordance with FASA.

Prior to issuing purchase cards to cardholders and approving officials, OMD instructed
Commission employees on its purchase card program policy, responsibility hierarchy,
unauthorized purchase card transactions and establishments, required sources for supplies and
services, and security responsibilities. Additionally, OMD notified each cardholder and
approving official of the prescribed penalties for violating the Commission directive.

On February 27, 1997, OMD began formally training all FCC cardholders and approving
officials on their duties and responsibilities under the program. OMB provided each participant
with a policies and procedures binder, entitled "FCC Purchase Card Program For Small
Purchases $25K and Below," and instructed them on using and approving purchase cards in
accordance with the above Directive and FASA. Employees unable to attend the classes, such as
the Compliance and Information Branch (CIB) field office employees, received instruction
through interactive compact disks. Once trained, each employee signed a "PROCUREMENT
INTEGRITY CERTIFICATION OF FCC PROCUREMENT OFFICIALS," certifying their
familiarity with the applicable provisions of the Federal Procurement Policy Act (41 U.S.C.
Section 423) concerning prohibited conduct by procurement officials and certifying that they
will not engage in any conduct prohibited by that Act.



2
  Public Law 103-355, effective October 1, 1995.
3
  48 CFR, Chapter 1, Part 13, subpart 13.103.
4
  Amended, effective August 19, 1997.

                                               3
Since empowering FCC employees with VISA purchase cards to make small purchases under the
program, the Commission has experienced improved efficiency, time-savings, and eliminated
non-value-added processing and paperwork for making small purchases under the program. For
example, from January 9, 1998, through February 6, 1998, FCC cardholders made 441 purchases
for $206,711 in goods and services, which, prior to the program’s inception, would have required
processing by OMD’s Contracts and Purchasing Center.

                       FINDING AND RECOMMENDATION

Approximately 88 percent (sixteen of eighteen cardholders) reviewed by the OIG did not
complete and file the required Checklist C-1 (FCC Form A-526) documenting their
purchase card transactions. Additionally, interviews with the cardholders’ approving officials
revealed that the approving officials did not require their cardholders to complete the Checklist
C-1.

Reasons given for failing to complete the Checklist C-1 by cardholders and approving officials
included:

   •   Preparing the Checklist C-1 for each transaction became redundant;

   •   The cardholder keeps alternative records and tracks purchases against the budget;

   •   Approving officials review the monthly statement of account and signs the
       CARDHOLDER CERTIFICATION STATEMENT printed on the back of each statement;
       and,

   •   Per an Information and Technology Center (ITC) approving official, “ITC is not
       necessarily held to the letter of the Purchase Card Program because ITC knows the
       procurement rules and information technology for selected vendors/products.”

The above occurred even though the Contracts and Purchasing Center required that, before being
accepted into the program, all prospective FCC cardholders and approving officials had to attend
the FCC Purchase Card Program for Small Purchases $25,000 and below training program and
certify to their familiarity with, and agree to, abide by the Office of Federal Procurement Policy
Act Amendments of 1988.




                                                4
FCC Directive FCCINST 1097.1, Section 6.i. requires cardholders to complete the Checklist C-1
provided by the Acquisitions Branch for each transaction in order to establish an audit trail. This
audit trail includes obtaining the approving official’s purchase authorization before the user
makes the transaction. The Directive also requires that users “must retain the checklist and other
records of the transaction in his/her files for the one (1) year retention period specified in Federal
Acquisition Regulations 4.805(b)(10).

When a purchase cardholder fails to complete the Checklist C-1 documenting his/her
transaction’s compliance with FAR requirements and approving official authorization prior to
making purchases, cardholders and approving officials are circumventing the internal control
requirements prescribed in FCC Directive FCCINST 1097.1. This noncompliance breaks the
audit trail, thereby jeopardizing the integrity of Commission’s purchase card program and
increases the possibility for misuse of purchase cards and increases the likelihood for fraud.
FCC cardholders violating this responsibility also expose themselves to losing their purchase
card privileges and possible disciplinary action.

Recommendation The OMD takes appropriate measures to ensure that all FCC cardholders and
approving officials be required to comply with FCC Directive FCCINST 1097.1 requirements by
completing the Checklist C-1 prior to making purchase card transactions or promulgating
explicit exceptions to the policies of the FCC Directive.

Management Response The Managing Director and Contracts and Purchasing Center concur
with this finding (Please see the Appendix). They further stated that they will start conducting
random audits to verify use of the Checklist C-1 and will revoke purchase card privileges from
individuals that do not comply.

                              OTHER ISSUES IDENTIFIED

1. One cardholder placed a split-order to evade the $25,000 single-order purchase limit.
   The cardholder stated that the subject split-order transaction was made on the same day in
   order to renew the FCC’s annual subscription for the Commission’s library from a sole
   source vendor. Per both the cardholder and the approving official, they felt that this type
   purchase card transaction was not subject to the split-order limitation because they were
   renewing a long-standing subscription for the FCC library.

   The FCC Government Purchase Card Program User Guide UG-1, No. 8, Consider
   Applicable Dollar Limitations, expressly prohibits cardholders from making split orders in
   order to evade single-order dollar limits. This prohibition is founded in FAR Part 13.103(c),
   which prescribes that: “Requirements aggregating more than the simplified acquisition


                                                  5
   threshold or the micro-purchase threshold shall not be broken down into several purchases
   that are less than the applicable threshold merely to permit use of simplified acquisition
   procedures, or to avoid any requirements that apply to purchases exceeding the micro-
   purchase threshold.”

   Violations of the above FAR and FCC prohibitions could result in the cardholder and
   approving official losing their purchase card privileges and other sanctions. Additionally,
   per Acquisitions officials, should split orders continue to be used for evading single-order
   dollar limits, the FCC could be suspended from participating in the purchase card program.

   Per discussion with the Contracts and Purchasing Center, subscription renewals are
   problematic for the purchase card program. However, they are working on making FCC
   library subscription renewals an exception to the purchase card program’s $25,000 single
   purchase limitation.

   Management concurred and directed the library to stop splitting purchase card transactions
   (see the Appendix).

2. Two cardholders made information technology component purchases from vendors
   other than those on the approved vendor list.

   At the direction of an employee other than the approving official, a cardholder in the Office
   of General Counsel (OGC) purchased six Hewlett Packard LaserJet 6Lse printers directly
   from an office supply store that was not on the approved vendor list. We also found that the
   cardholder had no record of making price comparisons from at least three vendors and did
   not consult with their Information Technology Center (ITC) customer service representative
   (CSR) prior to making the above purchases. The cardholder stated that the printers were
   purchased from the non-approved vendor because time was of the essence and the office
   supply store’s prices were approximately the same as other quoted prices.

   An ITC cardholder purchased computer hardware from a vendor other than one on the
   approved vendor list. Additionally, the cardholder had no record of price quotations for the
   above transaction and did not complete the Checklist C-1. The cardholder stated that they
   make purchases through the approved vendor list except when emergency and availability
   are at issue for keeping the Commission’s computer networks operating.

   In addition to completing a Checklist C-1 and obtaining approving official authorization
   prior to making a purchase, the FCC Government Purchase Card Program User Guide UG-1
   also requires cardholders to:


                                               6
   •   Consult with their ITC CSR before purchasing information technology items;

   •   Select vendors from the approved vendor list for the item(s) being purchased; and,

   •   Obtain at least three vendor price quotations for all purchases over $2,500.00 and at
       least one quote (preferably two) for every purchase less than $2,500.00.

Purchase card holders who do not comply with the FCC’s purchase card program
requirements are circumventing Commission internal controls and violating their
responsibility to make transactions in accordance with FCC Directive FCCINST 1097.1.
This noncompliance jeopardizes the integrity of Commission’s purchase card program and
increases the possibility for misuse of purchase cards and unnecessarily exposes the
Commission to possible fraud. FCC cardholders violating this responsibility also expose
themselves to losing their purchase card privileges and possible disciplinary action.

Management concurred and stated that they will continue emphasizing the importance of
utilizing vendors on the approved vendor list (see the Appendix).




                                            7
